<html>
<title> - CYBERSECURITY IN THE HEALTHCARE SECTOR: STRENGTHENING PUBLIC-PRIVATE PARTNERSHIPS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 CYBERSECURITY IN THE HEALTHCARE SECTOR: STRENGTHENING PUBLIC-PRIVATE 
                              PARTNERSHIPS

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 4, 2017

                               __________

                           Serial No. 115-24
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-828 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d3c4dbf4d7c1c7c0dcd1d8c49ad7dbd99a">[email&#160;protected]</a>            
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                                 7_____

              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
H. MORGAN GRIFFITH, Virginia         DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            KATHY CASTOR, Florida
SUSAN W. BROOKS, Indiana             PAUL TONKO, New York
CHRIS COLLINS, New York              YVETTE D. CLARKE, New York
TIM WALBERG, Michigan                RAUL RUIZ, California
MIMI WALTERS, California             SCOTT H. PETERS, California
RYAN A. COSTELLO, Pennsylvania       FRANK PALLONE, Jr., New Jersey (ex 
EARL L. ``BUDDY'' CARTER, Georgia        officio)
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8

                               Witnesses

Denise Anderson, President, National Health Information Sharing 
  and Analysis Center............................................    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................    81
Michael C. McNeil, Global Product Security and Services Officer, 
  Philips Healthcare, and Chairman, Cybersecurity Working Group, 
  AdvaMed........................................................    28
    Prepared statement...........................................    30
    Answers to submitted questions...............................    90
Terence M. Rice, Vice President and Chief Information Security 
  Officer, Merck & Company, Inc..................................    34
    Prepared statement...........................................    36
    Answers to submitted questions...............................   109

                           Submitted Material

Subcommittee memorandum..........................................    74
Letter of November 3, 2016, from Ms. DeGette and Mrs. Brooks to 
  Robert M. Califf, Commissioner, Food and Drug Administration, 
  and Jeffrey Shuren, Director, Center for Devices and 
  Radiological Health, Food and Drug Administration, submitted by 
  Mrs. Brooks....................................................    79

 
 CYBERSECURITY IN THE HEALTHCARE SECTOR: STRENGTHENING PUBLIC-PRIVATE 
                              PARTNERSHIPS

                              ----------                              


                         TUESDAY, APRIL 4, 2017

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:17 a.m., in 
Room 2322 Rayburn House Office Building, Hon. Tim Murphy 
(chairman of the subcommittee) presiding.
    Members present: Representatives Murphy, Griffith, Burgess, 
Brooks, Collins, Walberg, Walters, Costello, Carter, Walden (ex 
officio), DeGette, Schakowsky, Clarke, Ruiz, and Pallone (ex 
officio).
    Staff present: Jennifer Barblan, Chief Counsel, Oversight 
and Investigations; Elena Brennan, Legislative Clerk, Oversight 
and Investigations; David DeMarco, Deputy Information 
Technology Director; Blair Ellis, Press Secretary/Digital 
Coordinator; Adam Fromm, Director of Outreach and Coalitions; 
John Ohly, Professional Staff Member, Oversight and 
Investigations; Jennifer Sherman, Press Secretary; Hamlin Wade, 
Special Advisor for External Affairs; Jessica Wilkerson, 
Professional Staff Member, Oversight and Investigations; Jeff 
Carroll, Minority Staff Director; Christopher Knauer, Minority 
Oversight Staff Director; Miles Lichtman, Minority Staff 
Assistant; Kevin McAloon, Minority Professional Staff Member; 
Jon Monger, Minority Counsel; Dino Papanastasiou, Minority GAO 
Detailee; and C.J. Young, Minority Press Secretary.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Good morning, and welcome to our Oversight and 
Investigations hearing on Cybersecurity in the Healthcare 
Sector: Strengthening Public-Private Partnerships. We are here 
today to talk about cybersecurity in the healthcare sector. 
Strong cybersecurity practices are essential in this industry. 
This isn't just about protecting data or information, this is 
about patient safety.
    For nearly two decades, a cornerstone of the Nation's 
efforts to combat cyber threats have been public-private 
partnerships designed to facilitate engagement and 
collaboration between the Government and private sector. Over 
time, this model has evolved, but the objective remains the 
same, the unity of effort between those responsible for 
protecting the Nation and those who own and operate the 
infrastructure that is critical to that mission.
    The focal point of these efforts are 16 critical 
infrastructure sectors, one of which is the healthcare sector. 
Each sector is organized around several key institutions: a 
Sector-Specific Agency, that is SSA; Government Coordinating 
Council, GCC; Sector Coordinating Council, SCC; and Information 
Sharing and Analysis Center. I hope you all have that. Each of 
these institutions plays an important role in ensuring 
participation, collaboration, and unity of effort of the 
Government and private-sector participants within each sector.
    Despite a number of efforts to improve this model over the 
years, it has achieved mixed results across the various 
sectors. Some sectors have succeeded in developing robust 
support and engagement with both Government and industry 
participants. The gold standard to date has been the financial 
sector. This sector enjoys a strong collaborative relationship 
with our Government partner, the Department of the Treasury, 
which is noteworthy because Treasury is also the regulator.
    In addition, despite having a very diverse sector, they 
have succeeded in encouraging support and participation from a 
wide variety of institutions from small community banks to 
large multinational financial institutions. This extensive 
membership has helped the sector to establish the Nation's most 
sophisticated and well-resourced ISAC, which improves its value 
to the entire sector.
    Another more recent success story has been the electricity 
sector. This sector of energy has improved collaboration and 
engagement both with Government partners at the Department of 
Energy and across private industry through senior executive 
participation on the Sector Coordinating Council. In addition 
to elevating the priority for industry partners, it has 
improved coordination and unity of effort with the Government.
    Despite the relative success of these and several others, 
every sector has unique characteristics and challenges that 
influence the pace of adoption and engagement in these 
institutions. What works for one sector may not work for 
others, and as each sector figures out what works best for 
their participants, however, the lessons from others should not 
be overlooked or ignored especially for those sectors that 
continue to evolve.
    What brings us to today's hearing, the healthcare sector 
focus--this sector has long struggled to coalesce around the 
public-private partnership model especially with respect to 
cybersecurity. This may be partially attributable to the fact 
that cybersecurity is a relatively new challenge for much of 
this sector. However, as health care becomes increasingly 
digitized, the need to improve cybersecurity must be a 
priority.
    Gaining the acceptance and support necessary to overcome 
historical obstacles will not be easy for this sector. To 
start, health care is an incredibly diverse and complex sector, 
with a wide range of industries and institutions of various 
sizes, technological sophistication, and resources. It is also 
a sector where cybersecurity often becomes conflated with 
privacy or compliance, complicating the discussion. This, in 
turn, is exacerbated by the fact that a successful public-
private partnership depends on collaboration and trust with 
HHS, an understandable challenge given the many participants in 
this sector who are regulated by various entities within the 
Department.
    These and other challenges are understandable and daunting. 
If I am a small, rural healthcare institution where 
cybersecurity falls to one employee who is also responsible for 
managing IT systems and, well, fixing copiers among other 
duties, what value do I get for the cost of joining the ISAC or 
listening to guidance from the Sector Coordinating Council? At 
present, it is hard to answer that question, especially for 
those institutions already operating on negative margins.
    These challenges, however, must be overcome. The cost of 
failure for patients, as well as healthcare institutions, is 
too great. Cybersecurity incidents can result in life or death 
situations if a medical device is hacked or an attack shuts 
down a hospital's computer systems. And cybersecurity is a 
collective responsibility and that is why it is imperative that 
this sector find a way to come together to find a sustainable 
path forward.
    I look forward to hearing more from our witnesses today 
about the challenges of this sector and what is needed to bring 
unity and commitment from all participants. These are the folks 
working in the trenches, and while the sector has shown signs 
of progress, what we will find out today is that much work 
needs to be done.
    [The statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    We are here today to talk about cybersecurity in the 
healthcare sector. Strong cybersecurity practices are essential 
in this industry. This isn't just about protecting patient data 
or information--this is about patient safety.
    For nearly two decades, a cornerstone of the Nation's 
efforts to combat cyber threats have been public-private 
partnerships designed to facilitate engagement and 
collaboration between the Government and private sector. Over 
time this model has evolved, but the objective remains the 
same--unity of effort between those responsible for protecting 
the Nation and those who own and operate the infrastructure 
that is critical to that mission.
    The focal point of these efforts are 16 critical 
infrastructure sectors--one of which is the healthcare sector. 
Each sector is organized around several key institutions--a 
Sector-Specific Agency, Government Coordinating Council, Sector 
Coordinating Council, and Information Sharing and Analysis 
Center. Each of these institutions plays an important role in 
ensuring participation, collaboration, and unity of effort of 
the Government and private-sector participants within each 
sector.
    Despite a number of efforts to improve this model over the 
years, it has achieved mixed results across the various 
sectors. Some sectors have succeeded in developing robust 
support and engagement with both Government and industry 
participants.
    The gold standard, to date, has been the financial sector. 
This sector enjoys a strong, collaborative relationship with 
their Government partner--the Department of the Treasury--which 
is noteworthy because Treasury is also their regulator. In 
addition, despite having a very diverse sector, they have 
succeeded in encouraging support and participation from a wide 
variety of institutions--from small community banks to large 
multinational financial institutions. This extensive membership 
has helped the sector to establish the Nation's most 
sophisticated and well-resourced ISAC, which improves its value 
to the entire sector.
    Another, more recent, success story has been the 
electricity sector. This sector has improved collaboration and 
engagement--both with Government partners at the Department of 
Energy and across private industry--through senior executive 
participation on the Sector Coordinating Council. In addition 
to elevating the priority for industry partners, it has 
improved coordination and unity of effort with the Government.
    Despite the relative success of these and several others, 
every sector has unique characteristics and challenges that 
influence the pace of adoption and engagement in these 
institutions. What works for one sector may not work for 
others. As each sector figures out what works best for their 
participants, however, the lessons from others should not be 
overlooked or ignored--especially for those sectors that 
continue to evolve.
    Which brings us to the focus of today's hearing--the 
healthcare sector. This sector has long struggled to coalesce 
around the public-private partnership model, especially with 
respect to cybersecurity. This may be partially attributable to 
the fact that cybersecurity is a relatively new challenge for 
much of this sector. However, as health care becomes 
increasingly digitized, the need to improve cybersecurity must 
be a priority.
    Gaining the acceptance and support necessary to overcome 
historical obstacles will not be easy for this sector. To 
start, health care is an incredibly diverse and complex sector, 
with a wide range of industries and institutions of varying 
sizes, technological sophistication, and resources. It is also 
a sector where cybersecurity often becomes conflated with 
privacy or compliance, complicating the discussion. This, in 
turn, is exacerbated by the fact that a successful 
publicprivate partnership depends on collaboration and trust 
with HHS--an understandable challenge given the many 
participants in the sector who are regulated by various 
entities within the Department.
    These and other challenges are understandable and daunting. 
If I am a small, rural healthcare institution--where 
cybersecurity falls to one employee who is also responsible for 
managing IT systems and fixing copiers, among other duties--
what value do I get for the cost of joining the ISAC or 
listening to guidance from the Sector Coordinating Council? At 
present, it is hard to answer that question, especially for 
those institutions already operating on negative margins.
    These challenges, however, must be overcome. The cost of 
failure--for patients, as well as healthcare institutions--is 
too great. Cybersecurity incidents can result in life or death 
situations if a medical device is hacked, or an attack shuts 
down a hospital's computer systems. Cybersecurity is a 
collective responsibility and that is why it is imperative that 
this sector find a way to come together to find a sustainable 
path forward.
    I look forward to hearing more from our witnesses about the 
challenges of this sector and what is needed to bring unity and 
commitment from all participants. These are the folks working 
in the trenches and while the sector has shown signs of 
progress, much work remains to be done.

    Mr. Murphy. Now I would like to recognize for 5 minutes Ms. 
DeGette of Colorado.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman. Every day, 
our infrastructure is under attack by those with malicious 
intent. We are constantly seeing new headlines about 
vulnerabilities and cyber attacks against our systems which are 
becoming more frequent and more sophisticated. Cyber threats 
are a reality we must face. Information systems connected to 
the internet are integral to the operation of our economy and 
our Government.
    While this interconnection is essential, it also brings 
vulnerabilities that bring serious challenges. They have 
affected companies from various industries like retail and 
banking, and now, as the chairman said, we are seeing 
increasing vulnerability in the health sector. For example, in 
2015, more than 113 million medical records were reportedly 
compromised in cyber attacks. In one wildly publicized case, a 
cybersecurity breach at Anthem compromised the personal 
information of nearly 79 million people.
    These attacks are a stark reminder that all industries are 
vulnerable and neither the private sector nor the Government is 
safe from cyber attacks. I am particularly concerned about 
these vulnerabilities faced by the healthcare sector as more 
and more Americans suffer the loss of personally identifiable 
information and private medical records.
    Defending our Nation's healthcare sector against a wide 
range of cyber threats will require a coordinated effort 
involving many players and approaches. I am very interested to 
hear today about the information sharing and analysis center, 
or ISAC. Several industries have established ISACs to encourage 
private companies to share information about cyber 
vulnerabilities and attacks. These ISACs have provided valuable 
assistance to industry in their efforts to bolster 
cybersecurity.
    Federal agencies also collaborate with these ISACs to 
facilitate the sharing of important information about cyber 
threats and incidents. I am so happy to have before us today 
the new head of the National Health ISAC, which is the ISAC 
that coordinates information sharing among our Nation's 
healthcare industry. The National Health ISAC shares 
information on vulnerabilities relating to healthcare 
providers, health IT companies, insurers, medical device 
manufacturers, and pharmaceutical organizations.
    I should note though that the National Health ISAC is a 
relatively new player. I am still interested though in learning 
about how it can leverage the experience of ISACs in other 
industries to assist us in the healthcare sector. I am also 
interested to hear how the National Health ISAC is helping its 
members in the healthcare sector prevent the kind of breaches 
that we have been seeing.
    I look forward to hearing the witnesses' perspectives on 
what challenges and vulnerabilities we face, and what is being 
done, and how we can improve. Alongside that is the question of 
the appropriate role of Government in encouraging and 
supporting these efforts. Because this is such an important 
area, I also hope in general we can continue to look for ways 
to strengthen our cybersecurity systems. Particularly as it 
relates to health care, I hope we can have more hearings about 
solutions to the threats that we face, including ransomware, 
hospital cyber attacks, and the theft of millions of Americans' 
medical information.
    Finally, Mr. Chairman, I want to remind the committee that 
I along with my fellow committee member Susan Brooks, sitting 
right over there, sent a letter to the FDA last year asking 
about cyber vulnerabilities in medical devices. As these 
devices become more advanced and integrated into our networks, 
they are increasingly vulnerable to dangerous cyber attacks. 
Because of the urgency of this issue, Mr. Chairman, I hope that 
we can expand in future hearings how the FDA will address 
emerging threats to medical devices.
    While there is certainly no silver bullet when it comes to 
solving cybersecurity threats, I am looking forward to hearing 
from our witnesses about the role that the National Health ISAC 
can play. I would like to see us take any steps we can to 
improve healthcare cybersecurity and this may be a valuable 
piece of that approach.
    Thanks again, Mr. Chairman, for having this hearing. I 
think this is another bipartisan issue that we can all agree 
that we need to work together to address and to strengthen the 
integrity of our medical records. I yield back.
    Mr. Murphy. The gentlewoman yields back, and now the 
chairman of the full committee, Mr. Walden.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank the gentleman, and I thank our 
witnesses for your testimony.
    We are well aware of the threats posed by our increasingly 
connected society, but nowhere do these risks hit closer to 
home than on the very technology we rely upon for our own 
health care. The threats range from ransomware, breaches of 
patient data at healthcare organizations, to the 
vulnerabilities of pacemakers and other medical devices. Taken 
in isolation, these and other threats pose serious challenges 
to healthcare organizations. Collectively, they demonstrate the 
breadth, complexity, and unavoidable nature of cyber threats in 
modern society both now and for the foreseeable future.
    You know, as technology becomes increasingly integrated 
with all levels of our health care, cyber threats pose a 
challenge to the entire sector. Everyone from the smallest 
rural hospitals to large providers and device manufacturers 
face some level of exposure and risk. Breaches, exploits, and 
vulnerabilities are inevitable realities of modern society even 
for the most well-resourced and sophisticated organizations.
    But this does not mean doom and gloom for everyone with an 
internet connection. It simply is reality and must serve as the 
baseline for any discussion about cybersecurity. We may not be 
able to stop every attack, but as the threats continue to 
escalate, we must do more to minimize the risk. Improving 
security is a collective responsibility. When we work together, 
Government and private sector, large companies and small, we 
can do more to improve security than if we attempt to solve it 
on our own.
    An attack on one organization may be prevented elsewhere if 
we have the infrastructure and mechanisms necessary to 
communicate effectively with others across the sector. Further, 
if an event has widespread or national implications, we need to 
coordinate an effective and efficient response with unity of 
effort not confusion over roles and responsibilities. That is 
why for almost two decades the United States has worked to 
establish public-private partnerships to coordinate security 
planning and information sharing within and across our 16 
critical infrastructure sectors which include health care.
    Effective collaboration between Government and the private 
sector is vital to elevating our security posture. These 
partnerships provide a vital link between those responsible for 
the safety and security of the Nation and those who own and 
operate the infrastructure critical to those objectives.
    To date, these public-private partnerships have experienced 
mixed results. Some sectors have been more successful than 
others in coming together both with private-sector and 
Government partners. The healthcare sector in particular has 
struggled to coalesce around these public-private partnerships 
for cybersecurity. It is this shared goal and that brings us 
together today.
    This hearing marks the important opportunity to hear from 
our distinguished panelists about what is necessary to bring 
the healthcare sector together and continue building momentum 
in the right direction. Simply put, the cost of inaction is too 
great. As the threats continue to escalate, so do our 
cybersecurity challenges. We have seen the headlines, we know 
the attacks will continue, but today is about what improvements 
can be made so we can be better prepared for the inevitable.
    With that Mr. Chairman, unless anybody wants the remainder 
of my time I would yield it back.

                 Prepared statement of Hon. Greg Walden

    We are well aware of the threats posed by our increasingly 
connected society, but nowhere do these risks hit closer to 
home than on the very technology we rely on for our own health 
care. The threats range from ransomware, breaches of patient 
data at heath care organizations, to the vulnerabilities in 
pacemakers and other medical devices. Taken in isolation, these 
and other threats pose serious challenges to healthcare 
organizations. Collectively, they demonstrate the breadth, 
complexity, and unavoidable nature of cyber threats in modern 
society--both now and for the foreseeable future.
    As technology becomes increasingly integrated with all 
levels of our health care, cyber threats pose a challenge to 
the entire sector. Everyone--from the smallest rural hospitals, 
to large providers and device manufacturers--faces some level 
of exposure and risk.
    Breaches, exploits, and vulnerabilities are inevitable 
realities of modern society, even for the most well-resourced 
and sophisticated organizations. But this does not mean doom-
and-gloom for everyone with an internet connection. It is 
simply reality and must serve as the baseline for any 
discussion about cybersecurity. We may not be able to stop 
every attack, but as the threats continue to escalate, we must 
do more to minimize the risk.
    Improving security is a collective responsibility. When we 
work together--Government and private sector, large companies 
and small--we can do more to improve security than if we 
attempt to solve it on our own.
    An attack on one organization may be prevented elsewhere if 
we have the infrastructure and mechanisms necessary to 
communicate effectively with others across the sector. Further, 
if an event has widespread or national implications, we need to 
coordinate an effective and efficient response--with unity of 
effort, not confusion over roles and responsibilities.
    That is why, for almost two decades, the U.S. has worked to 
establish public-private partnerships to coordinate security 
planning and information sharing within and across our 16 
critical infrastructure sectors, which includes health care.
    Effective collaboration between Government and the private 
sector is vital to elevating our security posture,. These 
partnerships provide a vital link between those responsible for 
the safety and security of the Nation with those who own and 
operate the infrastructure critical to those objectives.
    To date, these public private partnerships have experienced 
mixed results. Some sectors have been more successful than 
others in coming together--both with private-sector and 
Government partners. The healthcare sector, in particular, has 
struggled to coalesce around these publicprivate partnerships 
for cybersecurity. It is this shared, goal that brings us 
together today.
    This hearing marks an important opportunity to hear from 
our distinguished panelists about what is necessary to bring 
the healthcare sector together and continue building momentum 
in the right direction. Simply put, the cost of inaction is too 
great. As the threats continue to escalate, so too do our 
cybersecurity challenges. We've seen the headlines--we know the 
attacks will continue. But today is about what improvements can 
be made so we can be prepared for the inevitable.

    Mr. Murphy. The Chairman yields back. I now recognize the 
ranking member of the full committee, the gentleman from New 
Jersey, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman, for convening this 
hearing today.
    This committee has a long history of examining 
cybersecurity and, while we have made progress, it is clear 
that we still have a lot of work to do. We continue to see 
increasingly frequent and severe cyber attacks in both the 
public and private sectors, and yet our dependence on the 
internet and interconnected information systems only continues 
to grow. Faced with these realities we must find ways to 
bolster our defenses.
    And this is especially true in the critical sector of 
health care. Reports of cyber breaches such as the Anthem case 
highlight the need for all industry members to come together 
and find solutions. With the interconnection of health records 
and now with network-connected medical devices, this problem is 
becoming more urgent.
    While there is no single solution to guarantee that 
sensitive data will not be compromised, it appears that the 
Information Sharing and Analysis Centers, ISACs, may play an 
important role in our overall cyber defense strategy. Other 
industries have used the ISAC model to encourage private 
companies to share information about cyber threats, and today 
we will hear about similar efforts at the National Health ISAC.
    Personal information and medical records are increasingly 
at risk of cyber attack and therefore it is crucial for members 
of the healthcare sector to have access to information about 
threats and vulnerabilities. If the National Health ISAC can 
leverage and share that information, it may be able to help 
strengthen the cybersecurity of the healthcare community.
    I am also interested in hearing about what capabilities the 
National Health ISAC can offer the health industry and what 
challenges it faces. I am pleased to welcome Merck, which has a 
major presence in my district and in New Jersey, at the hearing 
today, represented by Mr. Terry Rice, who is vice president for 
IT Risk Management at Merck. An effective national strategy for 
security depends on a close partnership between Government and 
the private sector, so I look forward to hearing the 
perspectives of Merck, Philips and other companies in the 
health sector.
    We are faced with increasing threats in the healthcare 
sector and that requires us to continue to identify effective 
ways to strengthen our cybersecurity. And Mr. Chairman, these 
problems do not have easy solutions. In order to prevent and 
defend against a growing number of cyber attacks, we will need 
long-term commitments from many players, and I look forward to 
hearing from our witnesses about how the National Health ISAC 
can enhance our cybersecurity and how this committee can 
support those efforts.
    And unless somebody else wants my time I yield back.
    [The statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Mr. Chairman, thank you for convening this hearing today. 
This committee has a long history of examining cybersecurity, 
and while we have made progress, it is clear we still have work 
to do.
    We continue to see increasingly frequent and severe 
cyberattacks in both the public and private sectors. And yet, 
our dependence on the Internet and interconnected information 
systems only continues to grow. Faced with these realities, we 
must find ways to bolster our defenses.
    This is especially true in the critical sector of health 
care. Reports of cyber breaches such as the Anthem case 
highlight the need for all industry members to come together 
and find solutions. With the interconnection of health records-
and now with network-connected medical devices-this problem is 
becoming more urgent.
    While there is no single solution to guarantee that 
sensitive data will not be compromised, it appears that the 
Information Sharing and Analysis Centers (ISAC) may play an 
important role in our overall cyber-defense strategy.
    Other industries have used the ISAC model to encourage 
private companies to share information about cyber threats, and 
today we will hear about similar efforts at the National Health 
ISAC.
    Personal information and medical records are increasingly 
at risk of cyberattack, and therefore it is crucial for members 
of the healthcare sector to have access to information about 
threats and vulnerabilities. If the National Health ISAC can 
leverage and share that information, it may be able to help 
strengthen the cybersecurity of the healthcare community.
    I am interested in hearing about what capabilities the 
National Health ISAC can offer the health industry, and what 
challenges it faces.
    I am also pleased to welcome Merck to the hearing today, 
represented by Mr. Terry Rice, Vice President for IT Risk 
Management at Merck. An effective national strategy for 
cybersecurity depends on a close partnership between Government 
and the private sector, so I look forward to hearing the 
perspectives of Merck, Philips, and other companies in the 
health sector.
    We are faced with increasing threats in the healthcare 
sector, and that requires us to continue to identify effective 
ways to strengthen our cybersecurity.
    These problems do not have easy solutions. In order to 
prevent and defend against a growing number of cyberattacks, we 
will need long-term commitments from many players. I look 
forward to hearing from our witnesses about how the National 
Health ISAC can enhance our cybersecurity, and how this 
committee can support those efforts.
    Thank you, and I yield back.

    Mr. Murphy. All right, the gentleman yields back, and so 
now let's begin here. I ask unanimous consent that the Members' 
written opening statements be introduced into the record and, 
without objection, the documents will be entered into the 
record.
    So now I would like to introduce our panelists of security 
and privacy experts for today's hearing. First, we welcome Ms. 
Denise Anderson, who serves as president of the National Health 
Information Sharing and Analysis Center, NH-ISAC, as well as 
chair of the National Council of Information Sharing and 
Analysis Centers. Prior to this appointment, Ms. Anderson 
served as vice president of the Financial Services ISAC.
    Next, we welcome Mr. Michael McNeil, who serves as the 
global product security and services officer for Philips. In 
this role, Mr. McNeil is responsible for leading the global 
product security program for the company and ensuring 
consistent, repeatable processes that are deployed throughout 
their products and services in the healthcare market. Mr. 
McNeil is also here today representing AdvaMed, the Advanced 
Medical Technology Association, as chair of AdvaMed's 
cybersecurity working group. Welcome.
    And lastly, we would like to welcome Mr. Terry Rice, vice 
president of IT risk management and chief information security 
officer at Merck. Mr. Rice is also a member of the board of 
directors for the National Health ISAC.
    I want to thank all of our witnesses for providing 
testimony today and sharing your insights on the current state 
of public-private partnerships and coordinating with 
cybersecurity in the healthcare arena. Now you are all aware 
that the committee is holding an investigative hearing and when 
doing so has the practice of taking testimony under oath. Do 
any of you have any objection to taking testimony under an 
oath?
    Seeing none, the Chair then advises you that, under the 
rules of the House and rules of the committee, you are entitled 
to be advised by counsel. Do any of you desire to be advised by 
counsel during today's hearing? And seeing none, in that case 
will you all please rise, raise your right hand, and I will 
swear you in.
    [Witnesses sworn.]
    Mr. Murphy. Thank you. You are now duly sworn in and are 
under oath and subject to the penalties set forth in Title 18 
Section 1001 of the United States Code. Let's have you each 
begin with a 5-minute summary of your written statement, and we 
will begin with you, Ms. Anderson. Make sure your microphone is 
on and pulled close to you.

   STATEMENT OF DENISE ANDERSON, PRESIDENT, NATIONAL HEALTH 
  INFORMATION SHARING AND ANALYSIS CENTER; MICHAEL C. McNEIL, 
     GLOBAL PRODUCT SECURITY AND SERVICES OFFICER, PHILIPS 
HEALTHCARE, AND CHAIRMAN, CYBERSECURITY WORKING GROUP, ADVAMED; 
   AND TERENCE M. RICE, VICE PRESIDENT AND CHIEF INFORMATION 
            SECURITY OFFICER, MERCK & COMPANY, INC.

                  STATEMENT OF DENISE ANDERSON

    Ms. Anderson. Good morning, Chairman Murphy and members of 
the subcommittee. I want to thank you for this opportunity to 
address this subcommittee.
    ISACs are primarily all-hazard, trusted communities that 
promote the sharing of timely, actionable, and relevant 
information and provide forums for sharing around threats, 
incidents, vulnerabilities, best practices, and mitigation 
strategies. ISACs gather and disseminate information quickly 
and efficiently. Numerous incidents have shown that effective 
information sharing works.
    The ISACs collaborate and coordinate on a daily basis 
through the National Council of ISACs and work with the Sector 
Coordinating Councils. ISACs also work very closely with 
various Government agencies. In partnership with DHS, several 
ISACs participate in the National Cybersecurity and 
Communications Integration Center, the NCCIC, as well as the 
National Infrastructure Coordinating Center, the NICC, where 
they play a vital role in incident response and collaboration.
    The NH-ISAC is a global, nonprofit organization and its 
members represent approximately one-third of the U.S. health 
and public health GDP. In addition to its many services, the 
NH-ISAC has a representative on the NCCIC floor and fosters a 
robust machine-to-machine or automated sharing environment. The 
NH-ISAC is also engaged in two groundbreaking initiatives. The 
first is the CyberFit suite of services that allows members to 
leverage the NH-ISAC community to realize cost savings and 
efficiencies. The second is the Medical Device Security 
Information Sharing Council, a forum for manufacturers and 
hospitals to interact and collaborate in order to advance 
medical device security and safety.
    Under an MOU between the NH-ISAC, the Medical Device 
Innovation, Safety and Security Consortium, MDISS, and the FDA, 
a number of initiatives are underway including a program for 
coordinated medical device vulnerability disclosure and a 
program for medical device assessments. The highly collaborated 
partnership with FDA, NH-ISAC, and MDISS, is a great example of 
how industry and Government can come together to address 
cybersecurity issues.
    Today, because of advances in technology and the 
efficiencies of connecting devices by the internet, the cyber 
threat surface in health care has ballooned and the threat 
actors have followed. The stakes are very high. The focus has 
traditionally been on data and privacy, but if organizations 
cannot deliver services, as was seen in ransomware attacks 
recently, or data is manipulated or destroyed, patient lives 
are at risk.
    Congress can help meet this challenge by focusing on four 
key areas: Education and facilitation of the importance of 
information sharing. One of the great challenges for the ISAC 
and all ISACs is the lack of awareness among the owners and 
operators that the ISACs exist and are a valuable tool. 
Government should regularly and consistently encourage owner-
operators especially at the board and CEO level to join their 
respective ISACs.
    A policy statement that provides explicit guidance to SSAs 
and their sector constituents to integrate into their cyber 
risk management and preparedness programs their participation 
in and collaboration in ISACs is key. Another way to facilitate 
sharing is providing financial incentives through tax breaks or 
other means to organizations that join their respective ISACs.
    Two, protect information sharing. Recently, the Automotive 
ISAC was served a subpoena to furnish all documentation related 
to communications between the ISAC and one of its members. 
While the subpoena was quashed, the concern is that if courts 
were to allow broad sweeps for information and using ISACs as 
one-stop shops to accomplish it, such actions would effectively 
kill information sharing. The confidential information shared 
amongst the members of an ISAC should be protected and not 
subject to disclosure.
    Three, eliminate the confusion with the terms ISAC and 
ISAO. The February 15th, 2015 executive order called on the 
formation of Information Sharing and Analysis Organizations, or 
ISAOs. ISACs were the original ISAOs. However, ISACs are much 
more than ISAOs. It is absolutely essential that the successful 
efforts ISACs have established over the years not be disrupted. 
The EO and prominent coverage of ISAOs has led to much 
confusion within industry regarding ISACs.
    We have seen this clearly in the health sector. When FDA 
announced the need for manufacturers to participate in an ISAO, 
confusion ensued. The NH-ISAC is effectively serving as the 
ISAO, but the FDA guidance by using the term ISAO resulted in a 
lot of confusion that is still being sorted out. Government 
needs to call out, recognize, and support the unique role ISACs 
play and not apply ISAO as a blanket term for information 
sharing.
    Four, establish cybersecurity professionals as SSA 
liaisons. It has become increasingly apparent that industry 
needs an experienced Government representative at the SSA level 
who understands cybersecurity issues, threats, vulnerabilities, 
and impacts, as well as the blended threats between physical 
and cybersecurity. Having an established, clear go-to lead in 
this area is imperative.
    Thank you. This concludes my testimony and I thank you for 
the opportunity and I look forward to your questions.
    [The prepared statement of Ms. Anderson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you. Mr. McNeil, you are recognized for 5 
minutes.

                 STATEMENT OF MICHAEL C. McNEIL

    Mr. McNeil. Thank you, Chairman Murphy, Ranking Member 
DeGette, and members of the committee for the opportunity to 
testify today.
    It is critical to both patient well-being and the medical 
technology industry that medical devices are safe and that 
risk, including cybersecurity threats, are appropriately 
managed. AdvaMed, the world's largest trade association 
representing medical technology manufacturers and its member 
companies, including Philips, are committed to a robust 
cybersecurity framework as part of the development and 
postmarket management of medical technologies.
    Our strategies include not just staying on top of emerging 
software-based vulnerabilities and potential external threats 
while anticipating how they might affect our products and 
solutions, it also includes collaborating with regulatory 
agencies, industry partners, and healthcare providers to close 
security loopholes. This includes participation in the 
Healthcare Industry Cybersecurity Task Force sponsored by 
Health and Human Services, HHS.
    I'd like to emphasize, one, medical device development and 
security risk management. Medical device manufacturers must 
address cybersecurity throughout the product lifecycle. This 
includes the design, development, production, distribution, 
deployment, maintenance, and disposal of devices and associated 
data. Second, system level security. AdvaMed member companies 
have developed foundational principles for the management of 
medical device cybersecurity and believe that medical 
technology cybersecurity is a shared responsibility among all 
stakeholders within the healthcare community including 
manufacturers, hospitals, physicians, and our patients.
    Third, we need to have coordinated disclosure. Medical 
device manufacturers should deploy a coordinated disclosure 
process that provides a pathway for researchers and others to 
submit information including potential vulnerabilities. 
Coordinated disclosure processes should define the 
responsibilities of both the manufacturers and researchers. 
Whenever potential vulnerabilities involving a medical device 
are discovered, findings should first be brought to the 
attention of the manufacturer and/or the FDA for review, 
analysis, and possible remediation.
    Third, information sharing. The industry should share 
threat and vulnerability information to assist manufacturers in 
continuously managing their devices' cybersecurity throughout 
the product's lifecycle. And then fourth, a consensus around 
our standards, regulatory requirements, and education. The 
development of cybersecurity-related consensus standards and 
regulations should be accomplished collaboratively among the 
regulators, medical device manufacturers, independent security 
experts, academia, and healthcare delivery organizations.
    The U.S. Food and Drug Administration, the FDA, should be 
commended for leadership in medical device cybersecurity. The 
FDA and its cybersecurity staff have worked closely with the 
medical technology industry and the broader healthcare 
ecosystem to ensure medical device cybersecurity is considered 
and addressed throughout all stages of the product design and 
use.
    AdvaMed and Philips are among the organizations that look 
forward to continuing to work with Congress and the 
administration to ensure that the medical technology industry 
maintains a forward-leaning approach to cybersecurity and the 
devices that they produce are safe for our patients.
    Thank you very much for this opportunity.
    [The prepared statement of Mr. McNeil follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you, Mr. McNeil. Mr. Rice, you are 
recognized for 5 minutes.

                  STATEMENT OF TERENCE M. RICE

    Mr. Rice. Thank you. Chairman Murphy, Ranking Member 
DeGette, and members of the subcommittee, my name is Terry Rice 
and I have been involved in healthcare cybersecurity for 15 
years. I also participate in a number of public-private 
partnerships that are working diligently to improve the 
cybersecurity across the healthcare sector and I appreciate the 
opportunity to testify on this important matter.
    Nowhere is the cybersecurity challenge more acute today 
than in the healthcare industry. In just the last few years, as 
has already been mentioned, we've seen more than a hundred 
million health records of American citizens in a couple of 
well-publicized incidents. We have seen how software 
vulnerabilities in insulin pumps and pacemakers can be 
exploited to cause potentially lethal attacks. And we have 
witnessed entire hospitals in the United States and the U.K. 
shutting down for multiple days to combat ransomware infections 
in critical systems.
    Unfortunately, I believe these incidents underrepresent the 
risk we are facing in the industry and I make this statement 
based on five observations. First, the total number of 
cybersecurity incidents is significantly underreported due to 
current disclosure laws. Number two, electronic evidence 
gathered through normal security monitoring suggests there are 
a lot more breaches and incidents than what is currently 
reported. Three, the healthcare industry consists of many small 
to midsized businesses that lack the capital and personnel to 
deal effectively with all but the most basic cybersecurity 
issues.
    Fourth, in our industry, the need for portability of health 
information to adequately care for patients increases the risk 
unlike many other sectors. Five, recent advances in healthcare 
technology along with the proliferation of electronic health 
records and healthcare applications has opened up a much wider 
array of cybersecurity risks and exposures. The combination of 
these observations leads me and many of my peers to believe 
that the cybersecurity situation in the healthcare industry is 
far worse than what current reporting indicates.
    Neither the private sector nor the Government can solve 
this problem alone. We must work collaboratively and 
transparently to reduce this risk. As a participant and user of 
services provided through multiple public-private partnerships 
identified in my written submission, I feel each provides 
tremendous value and has become an integral and essential part 
of the defense of my organization.
    We consume intelligence from the NH-ISAC on a 24 by 7 basis 
to update our defenses, we utilize digital identities from the 
SAFE BioPharma Association to protect sensitive data, and we 
participate in the Sector Coordinating Council meetings to 
discuss emerging topics in the cybersecurity area.
    But I think there's a lot of opportunity to do more and 
I'll cover five of the observations, or five of the items that 
I hit in my written testimony.
    First, HHS should appoint a senior cybersecurity 
professional with healthcare-sector experience as the primary 
liaison to industry. Today, there are multiple offices within 
the Department that have some responsibility for cybersecurity 
outreach, but none of them have it as their primary task. 
Furthermore, few organizations have the detailed cybersecurity 
knowledge and experience to engage with their private industry 
peers. This new role would be the focal point for all 
cybersecurity interactions with the private sector and would 
serve as the Government lead on the rest of the opportunities.
    Number two, HHS should work with the Sector Coordinating 
Council and private sector to develop a more comprehensive 
cybersecurity protection plan for the industry. While the high-
level cybersecurity plans were captured in the latest iteration 
of the Healthcare and Public Health Sector Specific Plan dated 
May 2016, a more thorough and detailed plan should be 
developed. The current plan is only two pages. Third, HHS and 
the NH-ISAC should work with DHS, law enforcement, and the 
intelligence community to increase the quality of intelligence 
and the speed with which it is shared to the private industry.
    Fourth, HHS and the Sector Coordinating Council, the NH-
ISAC, should work with the private sector to schedule and 
execute tabletop exercises and other simulations to assess the 
effectiveness of the cybersecurity plan within the healthcare 
environment. These events would be similar to the Hamilton 
series of exercises conducted by the Department of Treasury and 
the financial services sector that led to the creation of 
capabilities such as the Sheltered Harbor concept that is 
scheduled to go operational this year.
    Fifth and finally, HHS, DHS, and the Sector Coordinating 
Council should collaborate with global agencies and 
institutions to share intelligence best practices and emerging 
concerns. This is a global problem. Thank you.
    [The prepared statement of Mr. Rice follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you. I will now recognize myself for 5 
minutes of questions. So let's start off in identifying what 
this is, because this gets into a lot of weeds and pretty 
technical for us.
    So what is the worst-case scenario? What happens if these 
problems aren't fixed? What happens in the healthcare sector 
with everything from medical devices to medical records to 
pharmaceuticals, all these things, what problems? I mean what 
is the problem that emerges here, Ms. Anderson?
    Ms. Anderson. I think one of the big problems would be if 
manipulation of data. So if, for example, if a threat actor 
went in and said I'm going to, if you have a hundred medical 
records I'm only going to change two or three of them and you 
have to figure out which ones were manipulated that could 
actually have a huge impact on patient care and safety, because 
if someone were a diabetic, for example, and that was taken 
from their record, or allergic to a particular medicine that 
could be, you know, very detrimental.
    Mr. Murphy. So that would be someone who just for malicious 
intent, they just wanted to cause problems or they would want 
to----
    Ms. Anderson. Maybe to----
    Mr. Murphy. Ransom.
    Ms. Anderson [continuing]. Ransomware as well, yes. So we 
have seen that as, you know, where people have held things for 
a ransom, ransomware attacks obviously, or even access to their 
Web sites or access to information. So that would be a criminal 
motivation as well.
    Mr. Murphy. Mr. McNeil?
    Mr. McNeil. So I would build upon the information that 
Denise just stated and elaborate that, if you do manipulate 
some of the information, at least as it pertains to the medical 
devices, that could lead to patient safety directly with the 
patient's health in terms of either misinformation that is used 
in diagnosis and treatment as well as the manipulation of how 
those devices can function.
    Mr. Murphy. So real life-and-death harm, or certainly 
causing complications in the hospital. Expensive difficulties 
emerge from this if we don't fix this.
    Mr. McNeil. Correct.
    Mr. Murphy. Mr. Rice, do you have anything to add to that?
    Mr. Rice. Sure. The patient safety issue is top of mind, 
but that also would further break down trust and potentially 
the adoption of new medical technology which could have 
ramifications on healthcare delivery. There's also the issue of 
continuity of service as we've seen with the ransomware issues 
that have come up in hospitals and not able to provide critical 
care. And then, finally, the loss of intellectual property and 
trade secret information, which could have long lasting 
economic impacts.
    Mr. Murphy. Thank you. We will see if we can take care of 
the technical problems of our sound system. I apologize for 
that.
    So, Ms. Anderson, I understand that NH-ISAC and--it is 
being held ransom--has historically struggled to be effective 
and a reliable resource for the sector. So, based upon your 
previous experience with the financial-sector ISAC, which is 
often considered to be the gold standard among these 
organizations, what is necessary for NH-ISAC to succeed and are 
there any unique aspects of the healthcare sector that are 
particular challenges for you and your organization?
    Ms. Anderson. Absolutely. So, you know, with health care, 
for example, the smaller--there are many, many smaller 
organizations that--you know, your small physician practices. 
If you go down the street, you'll see a chiropractor's 
practice, a dentist's office, these are all very vulnerable to 
cyber attacks or incidents, and they are probably the lowest-
hanging fruit and don't have the cybersecurity practices in 
place.
    So being able to encourage those smaller practices, being 
able make them cyber savvy, being able to educate them on their 
staff and why it's important to be aware of cybersecurity and 
things that they can do to protect themselves against it is 
important. With the Financial Services ISAC, we're actually now 
with the National Health ISAC delivering many of the services 
if not more that the Financial Services ISAC has been able to 
do for their members. But they have been able to grow over time 
and they have a successful community of sharing and that's 
something that we need to build within the NH-ISAC.
    Mr. Murphy. Well, let me ask that maybe Mr. McNeil and Mr. 
Rice can weigh in this. So, when we talk about the membership 
involved, that information flows two ways. It flows down to the 
members, the doctor's office, the medical supply companies, the 
hospital, but it also flows upwards, and does that help? Does a 
membership size affect this?
    Mr. Rice. It actually flows also a third direction, which 
is laterally, and that actually is the greatest volume today. 
So, when one member of the 200-plus companies that are in the 
ISAC today sees something that is hitting their network, they 
take the information and rapidly pass it to other individual 
companies that are members of the ISAC. That allows us to take 
that information, update our defenses before that same actor is 
able to attack us, almost like a neighborhood watch program.
     Mr. Murphy. But with this, and we saw this in the 
financial sector, many banks were hesitant to share information 
laterally because it made them look more vulnerable, it affects 
their stock, et cetera, et cetera. So is this lateral sharing 
working out OK, Mr. McNeil?
    Mr. McNeil. I believe that the lateral sharing will 
continue to grow. I think it's still in its infancy, to be 
quite honest, for our particular industry. I think that we're 
putting in the appropriate mechanisms, one being the postmarket 
guidance from the medical device sector with the FDA, so that 
it affords us much more ability for that sharing as a part of 
the process of us reporting our vulnerabilities to the 
Government and to our constituents.
    Mr. Murphy. Thank you. My time has expired. I recognize Ms. 
DeGette for 5 minutes.
    Ms. DeGette. I have several questions, but I want to ask 
something that I have been wondering about. We keep talking 
about vulnerabilities of medical devices, and I am the co-chair 
of the Diabetes Caucus in Congress so that kind of worries me 
about the insulin pumps, but there is lots of other kinds of 
medical devices that can be vulnerable too. And I know that 
Johnson & Johnson warned customers about a security bug in one 
of its insulin pumps last fall, and then St. Jude dealt with 
some vulnerabilities in defibrillators, pacemakers, other 
medical electronics.
    I don't know, Mr. Rice, maybe Mr. McNeil, have we actually 
had examples of these pumps being, or these various medical 
devices actually people taking them over or is it just an 
identification of a threat? Have we actually had attacks?
    Mr. McNeil. So I'll speak first.
    Ms. DeGette. Yes.
    Mr. McNeil. There has not been a direct communicated 
reportable hack of a device. It has been in demonstration that 
those activities could be taking place. At this point in time 
we don't----
    Ms. DeGette. And is the risk of these attacks an individual 
or is it a whole class of devices?
    Mr. McNeil. So the actual devices and what has been 
communicated are individual in terms of those attacks that have 
been demonstrated. But ideally, as you can know, if you have 
multiple devices that have the same types of vulnerabilities 
and defects then potentially those same issues would take 
place.
    Ms. DeGette. That is why it is so urgent that we try to----
    Mr. McNeil. Correct.
    Ms. DeGette. OK. Ms. Anderson, I wanted to ask you a little 
bit about the ISACs. The purpose of an ISAC is to help private-
sector entities share cyber-related threat information with one 
another; is that right?
    Ms. Anderson. That's correct.
    Ms. DeGette. And the private sector can get this 
information from the Federal Government, often from the 
Department of Homeland Security; is that right?
    Ms. Anderson. That's correct.
    Ms. DeGette. And the Financial Service ISAC where you used 
to work it was quite successful in allowing that sector to 
share threat information involving the banking sector.
    Ms. Anderson. Correct.
    Ms. DeGette. So, turning to the healthcare sector, the 
risks as we have heard today are getting greater which includes 
risks on insurance companies, hospitals, medical devices, et 
cetera. That is what you are looking at right now.
    Ms. Anderson. Absolutely.
    Ms. DeGette. And so, you know, the National Health ISAC has 
not been around as long as these other ISACs like the financial 
services or energy sectors, so I guess given your expertise 
with financial services what more do you think needs to be done 
to make the National Health ISAC meet its full potential to 
serve its members effectively?
    Ms. Anderson. So I think that being able to make the 
constituents within the sector aware of the fact that the ISAC 
exists and that----
    Ms. DeGette. That is usually a fundamental----
    Ms. Anderson. Yes, that's----
    Ms. DeGette [continuing]. Tenet.
    Ms. Anderson [continuing]. Key, right. You know, and to 
make sure that they know it's a valuable tool that they can use 
to help protect them, because, as Terry mentioned, one person's 
defense is everybody else's offense, and that's kind of the 
concept behind the ISACs. So that is key.
    You know, mentioning what I mentioned in my oral testimony 
and written testimony about maybe tax breaks or incentives to 
get organizations to join, or any other means by through the 
SSA or others to encourage those constituents to join the ISAC 
is a best practice.
    Ms. DeGette. Now HHS has provided some funding through 
cooperative agreements to the National Health ISAC, so it looks 
like they support the concept of importance. What else can HHS, 
or what can we do to help achieve these goals that you are 
talking about?
    Ms. Anderson. I think again, you know, being able to build 
into the NIST Cybersecurity Framework that one of the best 
practices would be to participate in an information-sharing 
organization, or ISAC if it's critical infrastructure, is 
something that should be built into those standards, I believe, 
and then also being able to encourage those players especially 
at the CEO level.
    I was recently at a conference of rural hospitals and 
cybersecurity wasn't even spoken about or even on the radar. So 
there needs to be a huge education made at the CEO and board 
level that this is important.
    Ms. DeGette. Mr. McNeil, maybe Mr. Rice and then Mr. 
McNeil, you both sit on the board. Do you have any suggestions 
what can be done?
    Mr. Rice. Definitely. I believe as Denise was saying 
getting somebody in as the sector coordinating liaison to 
address at the board level. We have 200 members, which is a 
pretty decent start, but the FS-ISAC has 6,000 members.
    Ms. DeGette. Wow.
    Mr. Rice. And so we need to reach out a lot more to get all 
of those entities sharing information. And even if only a small 
percentage are active sharers, if you've got a base of 6,000 
that's a lot more data about attacks that are occurring across 
the ecosystem than even a small percentage of 200.
    One of the other challenges is as more and more attacks 
take place and more information is shared, you need to have the 
mechanisms to consume the data in an automated way. Humans 
cannot process that data. Larger entities have the capital and 
the wherewithal to be able to put in systems and capabilities 
to consume and immediately respond. The small rural hospitals 
are doing it manually. And so there needs to be a way where we 
can put in the automated capabilities to allow this sharing to 
occur more effectively.
    Ms. DeGette. Thank you. I am out of time, so I don't know 
if you want to let Mr. McNeil----
    Mr. McNeil. The only addition would be tenfold the growth 
and the education and the communication. That's what we really 
need to have at this point.
    Ms. DeGette. Thank you.
    Mr. Murphy. Thank you. I now turn towards the vice chair of 
the committee, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chair, and I 
appreciate it. I have got to tell you, I really like these 
hearings where we are learning all kinds of interesting 
information and where we have to figure out how do we make the 
system better from our positions in Congress.
    So, Ms. Anderson, let me ask you. In your testimony you 
described how the Auto ISAC was recently subpoenaed by an 
entity looking for all communications between the Auto ISAC and 
one of its members. While the subpoena was ultimately rejected, 
you say that the incident itself was troubling.
    Why was this situation problematic, and if you know can you 
tell me, because I know the judge ruled that it was just a 
phishing expedition, but what were they looking for?
    Ms. Anderson. They were looking for any communications 
between that member and the ISAC, which there were a lot of 
nuances behind it because actually the ISAC didn't exist when 
the alleged incident occurred, so they were just kind of 
throwing spaghetti against the wall. But the concern as I 
mentioned is that if there is a trend for going after ISACs for 
a one-stop shop shopping for information that could be 
detrimental to information sharing.
    Mr. Griffith. And I do understand that. What specific 
protections exist or may be necessary to limit the negative 
consequences of this type of incident or subpoena?
    Ms. Anderson. If there were some way that, you know, 
Congress could help protect that information that gets shared 
confidentially amongst the members, because as we were talking 
a little bit earlier with the lateral sharing, trust is a key 
factor in that. And that's the beauty of the ISACs, they are 
trusted communities. So being able to protect that trust is 
absolutely key.
    Mr. Griffith. And I tend to agree that there ought to be 
some level of protection, but then I have also heard testimony 
and discussions today that make me think that maybe we ought to 
put some limitation on that. So, if we have that communication 
limited, but we said if there is clear or convincing evidence 
that would indicate that there may have been malfeasance or 
intentional tortious action, would you agree with that?
    Let me explain that so folks--I know you all get it. But if 
we have got a fear that insulin pumps or pacemakers or 
something else may be vulnerable and researchers share that 
with the ISAC and ISAC notifies the medical device production 
company or the company that has made it and they take no action 
and then there comes harm to some individual, obviously there 
you have, you know, a knowing and understanding that they are 
risking people's lives by not taking preventive actions. And I 
would want that information to be able to be shared after a 
judge ruled that there was some pretty good evidence that 
something like that happened. Would you not agree with that?
    Ms. Anderson. I would agree with it, definitely, to some 
extent. I think the information that gets shared within the 
ISAC probably would not even fall along those lines----
    Mr. Griffith. OK.
    Ms. Anderson [continuing]. Because we're sharing malicious 
IP addresses and we're sharing malware and we're sharing 
phishing emails and subject lines and things like that. So I 
believe personally that product liability issues probably will 
not be a factor in something that would want to be collected.
    Mr. Griffith. I guess I was thinking in that direction 
because there was an indication that some of the information 
that I saw indicated that there was a device that researchers 
found a vulnerability and, instead of going to the company, 
they went to a hedge fund.
    Ms. Anderson. Yes.
    Mr. Griffith. I would want them to share that through some 
mechanism with the company so the company could fix it.
    Ms. Anderson. Correct.
    Mr. Griffith. And then I would want to protect it up to 
that point, but then if the company shows in a total disregard 
for safety chose to ignore that information then I would want 
that information to be available.
    Ms. Anderson. Yes, I would agree with you.
    Mr. Griffith. OK. And if we craft something like that you 
would be all right with that, but you do think there needs to 
be something that makes it clear they can't just go on phishing 
expeditions every day because it makes it expensive for the 
ISAC and makes it troublesome for the companies who are trying 
to share info.
    Ms. Anderson. Absolutely.
    Mr. Griffith. All right, I appreciate that. Mr. McNeil and 
Mr. Rice, on those situations that I put forward do you all 
have any suggestions, comments, advice?
    Mr. McNeil. Well, I think the first one is at least with 
the manufacturers and the researchers with the example you 
gave, if we are following the postmarket guidance which the FDA 
has issued, it would allow us to have more of that coordinated 
disclosure. And in the event that that coordinated disclosure 
does not take the fruit that it should bear, then yes, I would 
be supportive of what you've stated in terms of appropriate 
requirements from the Government associated with that.
    Mr. Griffith. All right. And I should note before Mr. Rice 
speaks that I believe it was your testimony that said some nice 
things about the FDA. And oftentimes we are only dealing with 
problems in this committee so it is nice to hear some good 
things too.
    Mr. McNeil. Thank you.
    Mr. Griffith. Mr. Rice?
    Mr. Rice. The only other point I would add is that after 
the computer information sharing act of 2015 that was passed we 
actually did see an uptick because there was some rudimentary 
liability protections that were put into that act. So I do 
believe Congress has a role in helping to foster these sharing 
communities.
    Mr. Griffith. I appreciate that very much and with that Mr. 
Chairman, I yield back.
    Mr. Murphy. The gentleman yields back. I now recognize Ms. 
Schakowsky for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman. Seems to me that 
not only are we faced with cybersecurity threats targeting 
hospitals, insurance companies, and providers, but also the 
medical devices we use. And I wanted to quote from a 2017 
article in Wired magazine that said, quote, Johnson & Johnson 
warned customers about a security bug in one of its insulin 
pumps last fall, and St. Jude has spent months dealing with the 
fallout of vulnerabilities in some of the company's 
defibrillators, pacemakers, and other medical electronics. You 
would think by now medical device companies would have learned 
something about security reform. Experts warn they haven't, 
unquote.
    The cybersecurity warning pertaining to defibrillators 
manufactured by St. Jude Medical are particularly concerning to 
me. Right before these concerns were made public, St. Jude 
Medical and the FDA issued a voluntary recall for these devices 
due to premature battery depletion. Many patients including one 
of my staff were required to undergo surgery to replace the 
defective device.
    And I can't imagine going through that ordeal only to find 
out that the new device, the new device could be vulnerable to 
a cybersecurity attack. Just to say this is a young woman on my 
staff that has a congenital heart condition and it is a really 
big deal to have to go through an additional surgery, which by 
the way St. Jude won't pay for all of it. That is another 
matter.
    So, Mr. McNeil, what actions are medical device 
manufacturers taking to make sure medical devices are secure 
from cybersecurity threats both before and after they reach the 
market?
    Mr. McNeil. So one of the very first areas that a medical 
device manufacturer needs to maintain and be the mantra that 
they think about is patient safety. And when you look at the 
development and the programs that we put in place, we cannot 
look at the lifecycle of the development of the solutions as we 
did in the past and years before when you did not have 
connected environments and you did not have the access that 
currently exists with these types of products and solutions 
that are in our patients and in the marketplace.
    So, first and foremost, you need to make sure that through 
your development lifecycle that you are doing the appropriate 
testing and the risk assessments aligned to that clinical 
environment and the setting that those products and the 
solutions would be offered. And you have the continuous rigor 
within your cybersecurity program around the monitoring and the 
surveillance to ensure that those particular products are free 
and as much can be of any types of vulnerabilities.
    Ms. Schakowsky. Well, obviously that is what they should 
do. But, you know, how do we make sure they do that? And also, 
Mr. McNeil, how do medical device manufacturers alert customers 
of a potential security risk to their medical device? What 
policies and procedures do device manufacturers have in place 
to ensure consumers' notification is timely and effective?
    Mr. McNeil. So, again, I think, number one, you need to be 
able to do the appropriate security program and initiatives 
that are stated. Secondly, as a part of that program, 
communications is one of those utmost areas of focus, 
communications not only with the actual patients or consumers, 
but also through the Federal drug administration, with the FDA, 
because of their direct oversight and guidance over these 
manufacturers in terms of the development of their products and 
solutions.
    And I think that if you align within those particular 
frameworks, it affords us the ability to get that effective 
communication in a timely manner, you know, throughout the 
system both with the regulation and with directly to the 
consumer.
    Ms. Schakowsky. Well, I understand the U.S. Food and Drug 
Administration entered into a Memorandum of Understanding with 
the National Health ISAC and Medical Device Innovation, Safety 
and Security Consortium to promote cybersecurity information 
sharing for medical devices. In December of 2016, the FDA 
released final guidance on the postmarket management of 
cybersecurity and medical devices.
    And further, a medical device-specific information sharing 
and analysis organization, the Medical Device Vulnerability 
Intelligence for Evaluation and Response, has launched a 
streamlining effort to share the information regarding 
cybersecurity issues. I wondered if anyone wanted to respond to 
that. Mr. McNeil?
    Mr. McNeil. So, as a participant, I participate directly 
from a Philips perspective. We have been directly communicating 
and working with the NH-ISAC and the MDISS as well as the 
collaboration with the FDA, and we also have been working with 
external researchers within our products and solutions to make 
sure that we're communicating any identified activities from a 
vulnerability perspective through that particular initiative 
with NH-ISAC.
    Ms. Schakowsky. I thank you. I yield back.
    Mr. Murphy. The gentlelady yields back. I now recognize Dr. 
Burgess for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman, and I thank you for 
having this hearing. This is a timely topic and one that is, I 
think, important to every member of this subcommittee. In fact, 
on another subcommittee in the last Congress, I was chair of 
the Commerce, Manufacturing, and Trade Subcommittee. We did a 
lot of work on the ransomware issue, and it is one that 
continues to trouble me as a physician in my former life.
    Ms. Anderson, let me just ask you, and Chairman Murphy 
asked you about the Financial Services Information Sharing and 
Analysis Center. Are there lessons from the financial side that 
we could incorporate into the healthcare side? And one of the 
things that strikes me as you all were talking, on the 
financial side, if someone uses my credit card I will 
oftentimes get a call even if I give it to my staff member and 
say, ``Go get us a hundred Chick-Fil-A's for lunch,'' I will 
get a call that says, ``Is this really a legitimate purchase?''
    So that is not necessarily a bad thing. They see unusual 
activity on a financial transaction online and will call it to 
your attention. Do we have anything that is analogous in the 
healthcare sector where anyone is doing any kind of looking at 
a predictive modeling way of notifying a physician or a patient 
that there is unusual activity regarding their healthcare 
transaction?
    Ms. Anderson. Well, certainly, there are security vendors 
that offer that service, so they're, you know, what we call 
managed service providers and they're able to monitor the 
network traffic that you know, if they are employing those 
services they're monitoring that traffic and then alerting them 
on that.
    And we're also looking at some initiatives within NH-ISAC 
where we'll be able to handle traffic that, network traffic for 
various members as they participate and be able to alert them 
on things, anomalies that we may be seeing in their 
environment.
    Mr. Burgess. And yet when we do hearings and we talk about 
problems in the Medicaid system and the Medicare system, the 
GAO will report back to us that these are high-risk entities 
that are at high risk for inappropriate payments. We won't call 
them fraudulent, but let's just put it in the inappropriate 
payments category. And is there any way we can improve upon 
what the GAO has told us for years are high-risk activities, 
can we improve on those with copying the lessons say from the 
financial sector?
    Ms. Anderson. Oh, I would say so, yes. I mean the banks are 
able, they've, over time they've been able to develop complex 
algorithms where they're able to monitor traffic and behavior, 
you know, so payment behavior and pattern behavior of 
purchasing. So they've absolutely been able to do that, and I 
think it's applicable to the Medicare and Medicaid systems.
    Mr. Burgess. Do you know why we haven't done that yet?
    Ms. Anderson. I'm sorry. I do not.
    Mr. Burgess. OK, Mr. Chairman, there is the subject of 
another hearing. Really, this is for anyone. I guess, Mr. 
McNeil, it was in your testimony where you talked about the--
no, I am sorry. Mr. Rice, it was your testimony. Anecdotal 
evidence suggests there is a lot more cybersecurity incidents 
than what are currently reported.
    You know, I have a newspaper article from a few days ago 
back home in Texas, where a practice in Austin was struck with 
a ransomware attack. They looked to me like they had done the 
right things. They didn't pay any money. They had a back-up 
system. They wiped their servers. Patient care was perhaps 
interrupted briefly, but only for a period of 24 hours and they 
were able to be back up and running pretty quickly.
    So it almost sounds like a success story, but then further 
in the article it talks about now they are on the wall of shame 
from the Office of Civil Rights in Department of Health and 
Human Services. And you go to the Office of Civil Rights, 
Department of Health and Human Rights and look at the wall of 
shame and there are indeed almost 2,000 entities, I think 
1,827.
    So--and I realize this was set up by a congressional 
directive in the HITECH Act, and we told them to open this 
portal and it goes back to 2009. But is this really serving a 
good purpose, to be punitive to people who--again, you read the 
first part of the article, it looks like they did everything 
correctly?
    And I identify another practice actually in my district in 
Denton, Texas that apparently they had some computer equipment 
stolen so that theft has now placed them on the wall of shame I 
guess in perpetuity. Is that the best way we can go about 
handling this?
    Mr. Rice. I think we need to look at each case based on its 
own merits. In some cases, there may be incidents that were 
well handled as the example that you pointed out. I think the 
Defense Industrial Base recently has moved to mandatory 
disclosure, nonpublicly, where there can be incident analysis 
done to determine what the threat actors were, what actions 
were taken, were the actions appropriate, much in the manner 
that the NTSB today investigates airline and other types of 
traffic safety issues.
    I think that would be a way to better understand and get a 
better baseline of the incidents that are actually happening 
across the board.
    Mr. Burgess. But you can say we have got a problem with 
people underreporting and yet we clobber them when they do 
report and we put them on this list that is in perpetuity. I 
just think, Mr. Chairman, I know I am way over time, but I 
think probably reasonable for us to re-look.
    In fairness, I did not vote for the HITECH Act. It was part 
of the stimulus bill in 2009, so it would be easy for me to say 
it is not my problem. But it is all of our problems and I do 
think that is something that needs to be fixed. Thank you, Mr. 
Chairman. I will yield back.
    Mr. Murphy. Indeed, yes, good point.
    Ms. Clarke, you are recognized for 5 minutes.
    Ms. Clarke. I thank you, Mr. Chairman, and I thank our 
ranking member. I thank our panelists for the expert testimony 
here this morning.
    Mr. Chairman, cybersecurity incidents continue to threaten 
our critical infrastructure including the healthcare sector. A 
2015 Financial Times report on health cybersecurity discussed 
the Anthem breach that resulted in over 78 million people 
having personal and medical information compromised. This was a 
truly troubling revelation.
    The report said, quote, ``Anthem's breach sent a wave of 
panic through the healthcare industry. It exposed clients' most 
sensitive and valuable personal information and revealed just 
how unprepared the health industry was to threats from 
increasingly sophisticated cyber criminals and from nation-
states,'' end quote.
    It is now 2017, and I would hope that we have made strides 
in preventing this type of breach from occurring at Anthem or 
any other health-sector company. So, Mr. McNeil, what actions 
do private-sector companies take to prevent breaches like the 
one that impacted Anthem?
    Mr. McNeil. I think very often companies need to make sure 
that they're exercising within their own environment. As Mr. 
Rice, Terry, just stated earlier in his testimony, doing 
tabletop exercises so that you are exercising the rigors of 
incidents and activities and measurements. That you also, as I 
would do in our organization--for example, we have a group of 
actually security we call the ninjas, and my team of testers 
actually go out and test within our environment.
    So, if you're not doing and exercising internally what 
potentially could be happening to your organizations from an 
external perspective, it's hard to always be able to combat 
that activity.
    Ms. Clarke. So to you, Mr. McNeil, and also Mr. Rice, is 
there significant variation in the cyber capabilities of 
companies in the healthcare sector?
    Mr. McNeil. Yes, there definitely is a variation of 
capabilities. Because you have very small to very large 
organizations, and even within the large organizations that 
doesn't mean that they have the most adequate and up-to-date 
cybersecurity hygiene and discipline, it's identifying the fact 
that you need to have a governance program from the top of 
whatever size that the organization is down to and throughout 
the organization.
    Based upon that governance you put in the appropriate 
acumen around doing the testing, developing your products from 
a secure perspective, understanding how you are developing the 
solutions, and then making sure that you're testing and 
monitoring the threats within your entire environment. But yes, 
I would say that there's work that needs to be done and 
attention throughout the ecosystem of the organizations in 
health care.
    Mr. Rice. I would add that one of the things that has 
helped tremendously in the last couple of years is the 
publication of the NIST Cybersecurity Framework. That framework 
identifies a layered defense concept in which first you 
identify what are your most critical assets, then you try to 
prevent bad things from happening. But we realize that even the 
best protected organizations may have issues. So then you need 
to detect, respond, and ultimately recover if something really 
goes bad.
    Inside of that cybersecurity framework, there are maturity 
levels that allow organizations to start to assess themselves 
against those controls, and the latest HIMSS study showed that 
61 percent of healthcare companies were in the process of 
adopting the NIST CSF.
    One of the things that Denise mentioned that we're doing 
within the ISAC is this capability called CyberFit and we are 
creating a benchmarking capability to allow members to rate 
themselves across the sector as well as within the subsector. 
So a small healthcare provider compared to other healthcare 
providers versus a large pharmaceutical company, they get a 
good benchmark as to where they stand.
    Ms. Clarke. So let me ask the panel, how can the National 
Health ISAC help some smaller companies bolster their defenses?
    Ms. Anderson. I think, you know, being able to bring them 
into the fold and share information with them make them aware 
of even why it's important to engage in cybersecurity 
practices. I was just talking to someone that ran a medical 
practice and they were not aware, you know, they were told 
repeatedly by HR do these things, do these things, but they 
didn't understand the consequences of the fact of when they 
didn't do it. And so making people aware of the impacts and 
potential consequences I think is very important especially in 
these smaller organizations.
    Mr. McNeil. I would agree. As a board member, that's one of 
our major focus areas within NH-ISAC is looking at how we can 
expand the growth and the breadth of the organizations that are 
participating. And so we are looking at different tiers in 
order to make sure that that outreach and that awareness, you 
know, increases. And again I would say our goal is looking at 
that tenfold growth which has to happen immediately.
    Mr. Rice. Under Denise's leadership, we have greatly 
expanded the capabilities that the ISAC brings to the table. 
And one of the most recent initiatives just started was to 
divide up and have each member of the ISAC create portions of a 
security incident response plan or a security operations plan, 
and then when that is done to donate that into the public 
domain or at least into the healthcare sector.
    So the small entities that don't have a security officer, 
they can take that document and start to use it at least as a 
bare-bones capability to deal with any incidents that they 
face.
    Ms. Clarke. Thank you, Mr. Chairman. I yield back.
    Mr. Murphy. Mrs. Brooks, you are recognized for 5 minutes.
    Mrs. Brooks. Thank you, Mr. Chairman. I do applaud the work 
that the industry and Federal Government have done together to 
ensure that all potential vulnerabilities for individual 
medical devices and large cyber threats are addressed.
    As my friend and colleague, the ranking member, Congressman 
DeGette, mentioned earlier, I am the vice chair of the Diabetes 
Caucus, and we did write a letter to the FDA outlining several 
questions about how the agency is working with the industry to 
mitigate existing vulnerabilities and prevent emerging threats. 
However, we are still waiting on a response. We sent the FDA, 
in November, two of the questions that we posed. At this point 
I would ask unanimous consent to enter our letter into the 
record.
    Mr. Murphy. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mrs. Brooks. And with that I would like to ask your 
experience with respect specifically to the FDA, and so Mr. 
McNeil and Mr. Rice, how has the FDA specifically been working 
with medical device manufacturers and other stakeholders to 
assist them regarding potential vulnerabilities and cyber 
threats in both premarket and postmarket context? Mr. McNeil?
    Mr. McNeil. Yes. I would state that approximately maybe 2 
1A\1/2\ years ago the fragmented system that we currently have 
from medical device manufacturers specifically, also looking at 
health delivery organizations that consume a lot of the product 
as well as the patients, the researchers' organizations, it was 
extremely fragmented.
    I think that over the past 2 1A\1/2\ years, the FDA 
specifically has conducted workshops and specific outreach in 
order to make sure that they brought the ecosystem, as we call 
it, of the stakeholders together. It was the first time that 
that type of activity has truly taken place where you had all 
of the participants at the same table and exercising around one 
common goal.
    I think also in addition to that the passing of both the 
premarket guidance as well as the postmarket guidance also 
helped accelerate and consolidate direction around activities 
that need to take place from a medical device manufacturer in 
the development of our solutions and the type of requirements 
that should be included in our submissions in our 510(k) and 
other documentation also was very helpful, as well as how to 
manage and communicate from a postmarket perspective 
specifically around the coordinated disclosure.
    There was only a few of us from a company perspective over 
2 years ago, Philips being one that exercised the coordinated 
vulnerability disclosure to work with external researchers, now 
it is something that we look at as a requirement due to the 
postmarket guidance. So those are direct examples that I would 
look at and have appreciated by working with the FDA.
    Mrs. Brooks. And Mr. Rice, anything additional you would 
like to add or could you share with us any further explanation 
about the postmarket guidance on vulnerabilities that need to 
be shared with patients and consumers?
    Mr. Rice. Since we're not a medical device manufacturer, 
it's probably beyond my ability to be able to really provide 
any additional comment.
    Mrs. Brooks. Can you share though with respect to how the 
FDA has worked with your sector?
    Mr. Rice. Yes. And the outreach that's been done through 
the NH-ISAC particularly, we conduct semiannual summits to 
attract members. We generally have somewhere in the 
neighborhood of 400 or 500 people, cybersecurity professionals 
from across the industry attend. The FDA, I believe, has been 
at every single one of those presenting, updating, listening, 
and participating actively in the dialogues and discussions.
    Mrs. Brooks. Can you both share--there seem to be multiple 
agencies within HHS and I was a bit disturbed quite frankly, 
Mr. Rice, when you mentioned a two-page strategy. Can you 
please expand on that? Where did that two-page plan come from, 
and can you both talk a little bit about the various agencies 
that you work with within HHS? Mr. Rice?
    Mr. Rice. Each of the 16 critical infrastructures in the 
United States are asked to develop sector-specific plans. The 
Sector-Specific Agencies, Government agencies, are the 
coordinating point for that. So, every couple of years, the 
sector will develop and update its plan. Currently, the sector-
specific plan, which covers everything from pandemic flu to 
healthcare delivery and natural disasters and a wide array of 
other risks--it's about a 50-page document--there are 2 pages 
that are devoted to cybersecurity.
    I believe that while the material that's in there is 
helpful, it needs to be significantly expanded particularly for 
those small entities that don't have large security teams or 
security professionals even in their organizations.
    Mrs. Brooks. Thank you, my time is up. I yield back.
    Mr. Murphy. Thanks. Now Mr. Collins, you are recognized for 
5 minutes.
    Mr. Collins. Thank you, Mr. Chairman. I want to thank the 
witnesses today. This is certainly a timely topic. It is one 
that we are going to continue to have for as long we are here.
    And so I guess the question I have as an entrepreneur 
myself, the problem with a lot of what is going on today it is 
in the entrepreneurial world that most new medical devices are 
coming, most changes when kind of electronic medical records, 
these are startup companies spinning off of a university, 
spinning off of some research institutions, one- and two-man 
operations. Their total focus is getting their product funded, 
getting their product to the market. It is not, they are in 
total denial of anything related to what we are talking about 
here today, data breaches, or even in the case of a device 
somebody being able to access it.
    So I guess it begs the question on how to--you know, this 
is a start, education as you said. Is there a cost to join ISAC 
and if so, is there any thought--any time an entrepreneur has 
cost they are going to look at it and they are probably going 
to say no versus getting in early, so just kind of curious on 
that.
    Ms. Anderson. So, with the medical device manufacturers we 
actually, through the FDA and the partnership with MDISS as 
well, have created MD-VIPER which is a community where we can 
share responsibly disclosure around medical device security and 
vulnerabilities, and we'll also be providing that situation 
awareness around the various threats that are out there. That's 
still in development; we've just launched it this year. It will 
be free to people that sign up to participate.
    The ISAC membership is a little bit different, but we've 
gone a long way. As Michael mentioned earlier, we see it as our 
mission to help everyone within the sector because a rising 
tide floats all boats. And so, you know, we've reduced our 
member fees, so our lowest tier right now is $1,200, which is 
less than a cup of coffee a day. And----
    Mr. Collins. No, it is $1,200.
    Ms. Anderson. Twelve hundred dollars per year.
    Mr. Collins. Entrepreneur, it is $1,200.
    Ms. Anderson. Yes. But we are also working collaboratively. 
We share with many organizations, other ISACs as well as 
Government organizations at what we call the TLP white and 
green levels, so those threats that are possible we get those 
out there as broadly as we can.
    One of the things that we did was, actually a great public-
private partnership story, is we worked together with two other 
ISACs, the Multi-State ISAC and Financial Services ISAC as well 
as FBI, Secret Service, and two providers, Symantec and Palo 
Alto, and we did a series of ransomware road shows across the 
country in 14 different cities, free to anybody that showed up, 
where they could learn about ransomware, why it was important 
to protect against it, and how they could do that.
    Mr. Collins. Well, again what I would say is the earlier 
you get someone in the better. If it costs anything, that is 
going to be a problem especially for these entrepreneurial 
companies. And clearly, some of the bigger corporations 
understand it and at some point you just do your civic duty and 
bring those folks alone.
    When I was the subcommittee chair on Technology on small 
business, we had a hearing, and part of the hearing came out if 
a small company has a significant data breach, 67 percent of 
the companies are bankrupt within 12 months. That piece of data 
alone was eye-opening enough to a lot of small businesses 
because we pushed it out, it is like, you know, that is an oh-
my-God moment.
    And I just acknowledge that a lot of the products being 
developed, a lot of the software being developed, the 
developers would acknowledge that cybersecurity is an issue and 
then they are doing absolutely nothing about it. That is the 
reality. Wouldn't you agree, Mr. Rice?
    Mr. Rice. Absolutely, and I think education is definitely 
one of the areas that needs work. It was just a couple of years 
ago that there was only one academic institution in the United 
States that required people graduating with a bachelor of 
science in computer science to take a course, a single course 
on cybersecurity. And those stats have improved significantly 
in the last couple years, but you have lots of individuals that 
learn how to program and want to go off and join a startup 
company and have not had any experience or exposure to security 
education. And that's an area where there's plenty of 
opportunity for improvements.
    Mr. McNeil. Again, the education piece is definitely 
critical, and as you just stated the earlier in the process 
that we can bring them to the table obviously the better for 
all of us.
    Mr. Collins. Well, it is going to be a continued issue that 
we all face and it would be naive to think we can put an end to 
it. And I certainly agree with Representative Griffith that you 
can't. If you continue just to punish people on a wall of shame 
there ought to be some due process to get them off because the 
next person might not disclose; they might look at that as the 
death of their company. I wasn't even aware of that. That is 
thinking in the past. That is not forward-thinking, so maybe 
that is something Congress could work on.
    Thank you, Mr. Chairman. I yield back.
    Mr. Murphy. The gentleman yields back. I now recognize Dr. 
Ruiz for 5 minutes.
    Mr. Ruiz. Thank you very much, Mr. Chairman. Our Nation's 
healthcare system has been classified as a critical industry 
for almost 20 years, but still today we see cybersecurity 
breaches that expose millions of patient medical records to the 
highest bidder. The fact is our healthcare system is only just 
entering the digital age, but we must be able to learn from 
cyber attacks on other industries and implement the best 
practices developed to respond to them.
    It is critical that the healthcare sector take advantage of 
the expertise developed in these other sectors to safeguard 
patient data and the integrity of a hospital system. Imagine if 
there was a cyber attack during a terrorist attack that took 
down the 911 system. Imagine during that time they also took 
down our system to communicate in a wireless form with other 
members.
    Imagine if they go into a large hospital network and change 
the drug allergy information, which leaves doctors blind and 
nurses blind to administer certain medications that may 
actually hurt and kill the patient. Imagine if they change the 
dosages of medications that patients say that they need for the 
illness that is under their medical record. Imagine if they 
made little tweaks here and there which can actually cause harm 
and kill patients.
    So my first question is for Denise. What metric are you 
using to define success for the National Health ISAC, Ms. 
Anderson?
    Ms. Anderson. So I think one of the key metrics is the 
membership renewals, so people join the ISAC because they find 
value in it and so that our renewal level is a hundred percent. 
We've not had anybody drop in the last year since I've come on 
board, and we're growing. So, you know, the fact that people 
are finding value in what we're doing is important.
    Also, we see it in the comments. We just had some threads 
shared yesterday, actually, where members were saying, ``This 
ISAC is great, I'm seeing this as an extended arm to my threat 
intelligence team.'' You know, so it's like they're almost 
seeing it as part of their organization in helping them do what 
they do.
    Mr. Ruiz. How about in terms of its effectiveness, and have 
there been any data that you are measuring in terms of attempts 
to enter the system and a decrease more that you have 
identified and those that you have prevented?
    Ms. Anderson. Not at this point in time because a lot of 
that comes from the members themselves. But we are doing some 
initiatives where we're looking at deploying sensors onto 
member networks where that network flow will come into the ISAC 
and we'll be able to do some analysis on it.
    Mr. Ruiz. OK.
    Ms. Anderson. But we do have case studies where we're 
seeing information sharing where there have been successes, one 
recently where we shared with the Multi-State ISAC some stuff 
that we were seeing in National Health. It was an email that 
was compromised, an account in a utility in actually California 
and we were able to stop that attack because of what was shared 
in the National Health ISAC and then working with our partner 
in the Multi-State ISAC.
    Mr. Ruiz. Thank you. Mr. McNeil, I have heard that there is 
a healthcare cybersecurity task force and that you are 
participating in it. Can you explain what it is, how it came to 
be, and what the task force is working on?
    Mr. McNeil. Yes. The task force started approximately 1 
year ago with the auspice of an executive order, and based upon 
that executive order to be able to make recommendations around 
some of the critical areas within the healthcare industry. One 
of the communications was for us to take a look at other 
industries and understand the roads that they have traveled and 
to be able to leverage that activity in regards to the 
healthcare industry.
    We are right now in the process of finalizing that 
particular recommendation and it will be submitted. Our 
anticipated time frame here is the end of April, beginning of 
May, to the Government.
    Mr. Ruiz. That is great. So what is your utopian 
collaborative model between industry, private, public, and just 
getting everybody together to work on this? What does that 
vision look like?
    Mr. McNeil. I think that particular vision is for us to 
make sure that there's the collaboration across the different 
agencies. I think we made the comment that I am governed as a 
medical device manufacturer by the FDA, which is a part of HHS. 
We have the OCR which also has privacy and other implications. 
The hospital organizations are also a, you know, participating 
stakeholder.
    Mr. Ruiz. So basically bringing everybody together.
    Mr. McNeil. Right.
    Mr. Ruiz. This last question is for you, Ms. Anderson. We 
have a severe cybersecurity expert shortage in this country. It 
is absolutely horrendous the need versus the supply that we 
have. There is a program at Cal State University San Bernardino 
that is training in cybersecurity. What educational pipelines 
do we need to meet the high demand in our Nation for 
cybersecurity?
    Ms. Anderson. Absolutely I think that education system is 
key to developing staff within the cyber skills area. As Mr. 
Rice mentioned, you know, being able to build cybersecurity 
into actual computer science programs is key. I know there's a 
number of universities and educational institutions that are 
starting to work on that and certainly we have ISACs that--we 
have a REN-ISAC which is the Research and Education Network 
devoted to universities, and they also are working with it 
across the college and university level.
    Mr. Ruiz. Thank you very much.
    Mr. Murphy. The gentleman's time has expired. Now Mrs. 
Walters, you are recognized for 5 minutes.
    Mrs. Walters. I would like to thank Chairman Murphy for 
holding this hearing, and the witnesses for their testimony.
    We are well aware of the growing cyber threats this Nation 
is facing. No industry is immune to the threat of a cyber 
attack which is why it is important we examine the ways that 
public and private sectors can work together to maximize our 
efforts to combat these attacks. There is no question health 
records contain an individual's most personal and sensitive 
information. We can all agree that safeguarding confidential 
health records is critical.
    I would like to get some thoughts on how these efforts 
might be improved. The first question I have is for the entire 
panel. HHS is obviously a big organization with a diverse set 
of responsibilities and cybersecurity is just one of them. That 
said, I think we can all agree that cybersecurity in health 
care is immensely important and should be a priority for all 
stakeholders.
    Are there additional actions or initiatives regarding 
cybersecurity that HHS could take that you think would benefit 
the sector? And we will start with you, Ms. Anderson.
    Ms. Anderson. In my testimony, one of the things I pointed 
to was having the SSA recognize the ISAC as a best practice for 
organizations to join and to share information with each other 
around the incidents and vulnerabilities and mitigation 
strategies that they have in their environments, so I think 
that's definitely one way. Another way is to have a clear go-to 
person who is a cybersecurity professional with experience in 
cybersecurity and understands the unique nuances of health care 
and cyber and the blended threats between physical and cyber.
    Mrs. Walters. OK. Mr. McNeil?
    Mr. McNeil. It think also in addition there's an 
opportunity to improve transparency from medical device 
manufacturer and some of the processes that are used for the 
development of our solutions. One would be an example of a 
software bill of materials, which allows the manufacturers to 
describe what the components are, whether or not that's open 
source code or material. But if we can increase that 
transparency that would also force us to have a greater 
visibility around what might be potential vulnerabilities in 
our solutions.
    Mrs. Walters. OK, thank you. Mr. Rice?
    Mr. Rice. I would argue that the NIST CIF which is the 
cybersecurity framework that NIST published and has been 
adopted by 61 percent of the healthcare industry, if we could 
actually develop implementation guidelines, the NIST 
cybersecurity framework tells you what you should do. If we 
could develop guidelines particularly for those smaller 
entities that are tailored to the healthcare specific area, I 
think, would go a long way.
    And I'd also like to highlight what Mr. McNeil said with 
the software bill of materials. My daughter has celiac disease. 
When I go shopping for foods I look at the nutrition label on 
the package to see if it contains wheat or any type of gluten 
and obviously avoid that. Today when I'm purchasing software I 
don't know what is inside that software. I don't know what the 
components are and I don't have the ability to select or 
deselect software based on its ingredients.
    Mrs. Walters. OK, thank you. Now that I have asked you what 
HHS should be doing I am going to ask the opposite and this is 
another question for the entire panel. Are there issues related 
to cybersecurity that you believe are better left to industry 
to address and if yes, what are they and why are they better 
left to industry and if not, why not?
    And let's start with Mr. Rice.
    Mr. Rice. I think that the understanding of the risks 
within the sector requires industry knowledge. We are a very 
diverse sector. So, if you look at the payer community, they're 
worried about financial criminals. If you look at the 
pharmaceuticals, they're worried about patient safety and the 
integrity of information and trade secret data. If you look at 
the hospitals, they're worried about continuity of service and 
the protection of electronic health records.
    So industry is probably best at making those risk decisions 
as to what is the most effective way to address in each area, 
but it has to be done in collaboration with the Government. 
Thank you.
    Mrs. Walters. OK, thank you.
    Mr. McNeil. Again I would just build upon what Terry just 
stated in terms of that collaboration. Because of the diverse 
and the uniqueness of the healthcare industry, we definitely 
would like to see something aligned from a med-cert 
perspective. Right now we have a computer, you know, emerging 
response plan and a cert where we identify based upon the 
severities of the vulnerabilities, but it is not developed 
specifically to the healthcare industry based upon how those 
devices, products, or solutions are deployed in a clinical 
setting.
    So, through that collaboration, which has to be both public 
and private, I would want to see a reinforcement of that 
particular area of focus.
    Mrs. Walters. Ms. Anderson, do you have anything to add?
    Ms. Anderson. Very quickly, I think that information 
sharing should be encouraged but not mandated, and I think it 
should come from industry because when you share because you 
want to share it's different from sharing because you have to 
share.
    Mrs. Walters. OK. All right, thank you. I am out of time. 
Thank you.
    Mr. Murphy. I now recognize Mr. Costello for 5 minutes.
    Mr. Costello. Thank you, Mr. Chairman, for holding this 
important hearing and thank you to our witnesses today for your 
insight.
    My home State of Pennsylvania is indeed a hub for life 
sciences and medical device manufacturing. AdvaMed companies 
alone employ over 22,000 Pennsylvanians with nine member 
companies located in my congressional district. These companies 
are as diverse as the patients they serve. Zimmer in Exton 
which specializes in joint replacements employs approximately 
14 individuals, while Teleflex headquartered in nearby Wayne 
focuses on vascular solutions and has a team nearly 12,000 
strong.
    The fact remains that, despite differences in size, 
specialty, and scope, these companies and all the others in 
between are prime targets for bad actors seeking to cause harm. 
We all agree that we must take every reasonable action to 
ensure these companies that specialize in the safeguarding of 
life have the resources they need to defend themselves and the 
patient end users they serve against all kinds of cybersecurity 
threats.
    Ms. Anderson, I would like to ask you, regarding NH-ISAC 
could you describe some of the barriers to entry that do keep 
small to midsize companies from becoming members and, 
additionally, upon identifying those barriers to entry what can 
we do to mitigate them?
    Ms. Anderson. So I think first and foremost is the fact 
that they don't even know that we exist.
    Mr. Costello. Right.
    Ms. Anderson. And that we can be a valuable tool, so that's 
huge. You know, when we are able to reach out to healthcare 
organizations and they see what we offer, we also are offering 
now a free trial program where they can be participants within 
the ISAC and get access to everything that's done over a 6-
month period. You know, the renewal rate is very high at that 
point. We saw that with FS-ISAC when they did that they had a 
90 percent success rate in that.
    So people need to find, be even aware that it exists, then 
they need to see the value so they can join. I think money, you 
know, obviously money is always a factor, but the fact that 
we've been able to bring it down to less than a cup of coffee a 
day and we're also exploring things such as scholarship 
programs and those type of things, bringing people to our 
conferences, doing free workshops which we do do, as well as, 
you know, maybe supplementing membership costs, are something 
that I think are very key.
    Mr. Costello. Thank you. For Mr. McNeil and Mr. Rice I am 
going to run off a string of questions and take them as you 
find appropriate. In general, what does your interaction with 
NH-ISAC look like on a daily basis? Two, could you please 
describe further how NH-ISAC is structured in such a way as to 
facilitate information sharing even among industry competitors 
who may be otherwise disinclined to share sensitive information 
regarding their organization? Three, what more can be done to 
help organizations feel confident using NH-ISAC to its full 
potential? And the catch-all, any additional comments you would 
like to offer?
    Mr. McNeil. So, from a daily basis in terms of the 
interaction that we have within NH-ISAC, we have, as Denise 
stated, there are alerts, so there's direct emails that we 
receive on a daily basis. We also have the ability to 
participate in different committees and in different activities 
that the NH-ISAC provides so that also allows us to have a 
direct access.
    We have the biannual summits that is stated, so that is 
another form of participation. They also have workshops that 
they conduct and that they've rotated. Specifically in my 
arena, we've had these medical device workshops where myself 
and other members have been able to participate. Structurally, 
the NH-ISAC allows us to have a constituency of board members 
and your board member opportunities go from anywhere from 1-, 
2- or 3-year slots that we have in place and as well as just 
our overall membership.
    From a competitive perspective in terms of my discussions 
there, I think the fact that we become, that the word when we 
said earlier from a trust perspective when you're able to gain 
the trust among the members of the NH-ISAC and the trust is 
there, Terry and I will share information just as much as I 
will share information with J&J, St. Jude, Medtronic, et cetera 
that you'd name it.
    But in order for us to get to that point we had to be able 
to participate in the initiatives that I've just described in 
order to help build that trust among our peer group as an 
example.
    Mr. Rice. As far as the NH-ISAC daily interaction, for me 
it's the dozens, sometimes much more than that of emails that 
come in about member companies that are seeing a phishing 
attack, seeing a denial of service attack, taking that 
information and then updating our own defenses.
    We also see questions that come in through our list server 
that can be open-ended, like what are you doing about 
ransomware? And then member companies will respond back to how 
they're working and operating, and the NH-ISAC staff will 
collate all that information and publish it into a document 
that's easily consumable by the members. And as Mr. McNeil 
indicated, it's also picking up the phone and knowing that 
somebody on the other side is dealing with the same issues as 
you and you can provide advice back and forth on how to handle 
a situation.
    As far as what more needs to be done, I stressed in my 
testimony the need for global engagement. The FS-ISAC is 
operating in 38 countries today. Cybersecurity is an 
international problem, it doesn't know boundaries. And so we 
should be actively addressing and trying to bring in 
multinational companies and other entities like Interpol and 
the European enforcement organizations to also share 
intelligence information about attacks.
    Mr. Costello. Thank you.
    Mr. Murphy. Thank you. I now recognize Mr. Carter for 5 
minutes.
    Mr. Carter. Thank you, Mr. Chairman, and thank all of you 
for being here today. Gentlemen, in the State of Georgia, where 
I am from, earlier this year Governor Nathan Deal, who is a 
former member of this committee, as a matter of fact, he 
announced $50 million in funding for a Georgia Cyber Innovation 
and Training Center at Augusta University in Augusta; very 
excited about that. This is something that we see as being very 
progressive and very forward-looking and something that I hope 
that we are going to be able to bring in private industry and 
bring in, you know, Government to work together on these type 
of issues.
    Do you see this as being the trend to have academia 
involved like this?
    Mr. McNeil. Yes, I definitely believe this is the trend and 
the participation. Number one, I will be at Augusta 
University----
    Mr. Carter. Yes.
    Mr. McNeil [continuing]. To help in the next couple of 
weeks meeting with the team and going over strategically some 
of the key initiatives. Philips is in a long-term partner and 
relationship in order to build that out. We also have worked 
very closely with other academia and institutions in regards to 
this space, so I believe that it definitely starts there and 
you'll see that as much more of a flourishing opportunity.
    Mr. Carter. Great, great.
    Mr. Rice. I second the comments. We've sponsored an 
exercise at NC State recently which brought in universities 
from around the Southeast to participate in a series of 
exercises that my staff and other cybersecurity professionals 
then graded so people would get practical experience in 
addition to the academic experience. I definitely think that 
this is one of the many opportunities we have to help address 
the shortfall in the cybersecurity work force.
    Mr. Carter. Great. Mr. McNeil, I want to go back to you. 
Philips is obviously a key player in this area and in many 
different industries. But can you share with us just some 
public/private-sector collaboration that has been most 
successful with your company and with some of the private 
industry?
    Mr. McNeil. I think some of the most successful activities 
has been, one, working with the NH-ISAC, also working with the 
MDISS organization again getting the word and the education out 
there. I think that when you talk about for example NH-ISAC, it 
traditionally had a strong influx from the pharmaceutical and 
the insurance industries. And due to a number of the 
cybersecurity activities that the medical device manufacturers 
are seeing, it now provides us with that type of public-private 
community in terms of participation.
    I think also when I look at the activities specifically 
that we're doing, it has afforded us that ability to increase 
our ability to grow from an information sharing as well as to 
coordinated disclosures around the researchers. I think also 
the partnership and the participation with the MDISS 
organization has reached out directly with the manufacturers 
and the researcher community. So there were researchers that 
had not originally been addressed or brought to the table that 
now are there.
    And then, finally, the work with the FDA. From the FDA's 
perspective and their outreach with their post and premarket 
guidance as well as a number of the workshops that they've 
hosted, they have been the catalyst to truly bring the entire 
ecosystem together and work on issues.
    Mr. Carter. Great. Mr. Rice, I want to ask you and I would 
be remiss if I didn't point out my professional career I have 
been a pharmacist so I am particularly interested in the 
pharmaceutical industry and how cybersecurity really impacts 
you. And I would suspect, you know, in the practice of pharmacy 
we have HIPAA regulations so we pay particular attention to 
cybersecurity. That is very important to us.
    What about in the pharmaceutical industry? I suspect that 
with research and development this is critical for your 
industry.
    Mr. Rice. Yes. That is one area of concern within the 
pharmaceutical industry, and as you're probably aware the 
healthcare sector outside of DoD is one of the largest, if not 
the largest, investor in research and development, and that 
includes both the Government as well as the private sector.
    So research and development is one aspect. Information 
about mergers and acquisitions prior to public disclosure, we 
saw in the FIN4 report from FireEye, a security research 
company, that there had actually been attacks. Not against the 
large companies but the smaller companies that were likely to 
be acquired, these actors would get in and they would be able 
to get information about which they could potentially trade on.
    The second area would be around manufacturing. We run 
industrial control systems, SCADA systems that automate the 
manufacturing line, so potential disruptions of that equipment 
would also cause significant harm. And then finally, being able 
to disclose financial statements, the integrity of information, 
the integrity of information in the clinical trial processes 
that we have, all of those are areas of concern. So it's across 
almost every aspect of the industry that we see challenges.
    Mr. Carter. Great, thank you. And thank you all again for 
being here, and I yield back, Mr. Chairman.
    Mr. Murphy. Thank you. Thank you. So, in conclusion, I want 
to thank all the witnesses and Members that participated in 
today's hearing. This is a pretty difficult subject but 
something that we have to continue to pursue, as we heard the 
complex testimony. And I am learning quite a bit myself 
especially about these acronyms which are your daily breakfast, 
but as we go through this certainly what we have to pursue is 
ways of simplifying and making sure that all these different 
departments work together, especially given what you opened up 
with what the threats that are out there for life and functions 
within the hospital and healthcare system.
    So, again, I thank all the witnesses for participating 
today. I will remind all Members they have 10 business days to 
submit questions for the record. I ask all witnesses to agree 
to respond promptly to the questions. With that, this hearing 
is adjourned.
    [Whereupon, at 11:57 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
